                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM                                             1


Case Numher: 10050017                                                                      Page 1 of 1



     The investigation was initiated from an inquiry 1 that identified potential issues regarding the
     accounting and reporting of NSF award funds to a non-profit organization. 2

     As part of.the investigation, the organization provided OIG with financial and other relevant
     information regarding the NSF award. 3 We reviewed these records and did not find that further
     investigation was warranted. However, we identified issues that were deemed appropriate for
     audit.

     We referred our findings to the OIG, Office of Audit, for consideration in future audit planning.
     Accordingly, this investigation is closed.




                                                                                                         I

      2
